No. ______
In the

Supreme Court of the United States
__________________
NINA M. BOTTINI, FRANCIS A. BOTTINI, JR., AND
BERNATE TICINO TRUST DATED MARCH 2, 2009,
TRUST “3”,
Petitioners,
v.
CITY OF SAN DIEGO, A MUNICIPAL CORPORATION, AND
CITY COUNCIL OF THE CITY OF SAN DIEGO,
Respondents.
__________________
On Petition for Writ of Certiorari to the
Court of Appeal of California
Fourth Appellate District, Division One

__________________

PETITION FOR WRIT OF CERTIORARI
__________________
ALBERT Y. CHANG
YURY A. KOLESNIKOV
BOTTINI & BOTTINI, INC.
7817 Ivanhoe Avenue
Suite 102
La Jolla, California 92037
(858) 914-2001

RICHARD A. EPSTEIN
Counsel of Record
800 North Michigan Avenue
# 3502
Chicago, Illinois 60611
(312) 702-9563
richard.epstein@nyu.edu

Counsel for Petitioners

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED
In First English Evangelical Lutheran Church v.
County of Los Angeles, this Court held that the Takings
Clause requires the government to compensate a
landowner for the entire period when a regulatory
taking effectively denied him “all use of his property.”
See 482 U.S. 304, 318 (1987). And in Penn Central
Transportation Co. v. City of New York, the Court
formulated a three-prong, ad hoc test for regulatory
takings that requires consideration of whether the
landowner had “reasonable and distinct investmentbacked expectations” to justify compensation. See 438
U.S. 104 (1978).
Here, the landowners have endured an eight-year
ordeal to apply for a permit from a city government to
build a home on a lot zoned solely for single-family
housing. After concluding that the city’s denial of the
building permit was unlawful, the California trial and
appellate courts refused to find a taking
notwithstanding the clear mandate in First English
and Penn Central. And the California Supreme Court
rescinded its initial grant of review. The questions
presented in this petition are two-fold:
1. Should the investment-backed-expectations test
of Penn Central be construed to totally bar recovery
whenever the purchaser of a single-family lot is unable
to learn, at the time of purchase, the exact path of
allowable development under local law?
2. Should the “normal delay” exception to the total
temporary takings rule of First English be construed so
broadly as to allow for indefinite and calculated delays
to bar recovery of any compensation?

ii
PARTIES TO THE PROCEEDINGS
All parties to the proceedings are listed in the
caption.
Petitioners are a married couple, Francis A. Bottini,
Jr. and Nina M. Bottini, and their family trust,
Bernate Ticino Trust Dated March 2, 2009, Trust “3”,
established to hold the title to the single-family lot at
issue.
Respondents are the City of San Diego, a municipal
corporation, and the City Council of the City of San
Diego.
STATEMENT OF PROCEEDINGS
The proceedings in the California state courts are
listed below:
! Francis A. Bottini, Jr., et al. v. City of San Diego,
et al., Case No. 37-2013-00075491-CU-TT-CTL
(Cal. Super. Ct. Cnty. of San Diego);
! Francis A. Bottini, Jr., et al. v. City of San Diego,
et al., Case No. D067510 (Cal. Ct. App. 4th
Dist.);
! Francis A. Bottini, Jr., et al. v. City of San Diego,
et al., Case No. D071670 (Cal. Ct. App. 4th
Dist.); and
! Francis A. Bottini, Jr., et al. v. City of San Diego,
et al., Case No. 8252217 (Cal.).

iii
TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDINGS. . . . . . . . . . . . . ii
STATEMENT OF PROCEEDINGS . . . . . . . . . . . . . ii
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . vi
OPINION BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL PROVISIONS INVOLVED . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 3
I.

The Bottinis’ Plight — to Build a Home. . . . . 3

II.

Background . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
A. The Bottinis’ 2011 Purchase of the Lot —
and the Dilapidated Cottage . . . . . . . . . . . 7
B. The City’s Refusal to Designate the
Cottage as Historical . . . . . . . . . . . . . . . . . 7
C. The City’s Declaration of the Cottage as a
Public Nuisance and Issuance of a
Demolition Order . . . . . . . . . . . . . . . . . . . . 8

III.

The City Council’s Unlawful Conduct
Effectively Denying the Bottinis a Permit —
and All Use of the Property. . . . . . . . . . . . . . . 9

iv
IV.

Proceedings in California Courts . . . . . . . . . 12
A. The Superior Court of California denied
any compensation to the Bottinis even
after finding that the City acted
unlawfully. . . . . . . . . . . . . . . . . . . . . . . . . 12
B. The Court of Appeal of California
misapplied Penn Central and rejected the
Bottinis’ takings claim . . . . . . . . . . . . . . . 13
C. After granting review, the Supreme Court
of California dismissed the review as
improvidently granted . . . . . . . . . . . . . . . 15

REASONS FOR GRANTING THE PETITION . . . 16
I.

The California Courts Have So Gutted
the Penn Central Test That It No Longer
Places Any Constitutional Restraint on the
Denials and Delays of Building Permits in
California . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
A. Penn Central sets forth a balancing test,
including consideration of investmentbacked expectations . . . . . . . . . . . . . . . . . 16
B. The California Court grievously
misinterpreted accepted law on the status
of investment-backed expectations . . . . . 18
C. The California Court of Appeal grievously
exaggerated the City’s environmental
interest . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

v
II.

The California Court of Appeal Misread the
“Normal Delay” Exception of First English by
Allowing It to Deny Any Compensation in All
Claims for Total Temporary Takings . . . . . . 27

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34
APPENDIX
Appendix A Order in the Supreme Court of
California
(April 10, 2019) . . . . . . . . . . . . . . . App. 1
Appendix B Opinion in the Court of Appeal, in the
Court of Appeal of the State of
California, Fourth Appellate District,
Division One
(September 18, 2018) . . . . . . . . . . App. 3
Appendix C Judgment in the Superior Court of the
State of California for the County of
San Diego, Central Division
(December 23, 2016) . . . . . . . . . . App. 59
Appendix D U.S. Const. Amend. 5 . . . . . . . . . App. 89
Cal. Const., Art. I, § 19 . . . . . . . . App. 89
Appendix E Excerpts of Respondents’ Brief and
Cross-Appellants’ Opening Brief in the
Court of Appeal of the State of
California, Fourth Appellate District,
Division One
(November 3, 2017). . . . . . . . . . . App. 92

vi
TABLE OF AUTHORITIES
CASES
Agins v. City of Tiburon,
24 Cal. 3d 266 (1979) . . . . . . . . . . . . . . . . . . . . . . 5
Armstrong v. United States,
364 U.S. 40 (1960). . . . . . . . . . . . . . . . . . . . . 32, 33
Bottini v. City of San Diego,
27 Cal. App. 5th 281 (2018) . . . . . . . . . . . . . . 1, 14
Dolan v. City of Tigard,
512 U.S. 374 (1994). . . . . . . . . . . . . . . . . . . . . . . . 6
First English Evangelical Lutheran Church v.
Cnty. of L.A.,
482 U.S. 304 (1987). . . . . . . . . . . . . . . . . . . passim
First English Evangelical Lutheran Church v.
Cnty. of L.A.,
210 Cal. App. 3d 1353 (1989) . . . . . . . . . . . . . . . 28
Knick v. Twp. of Scott,
139 S. Ct. 2162 (2019). . . . . . . . . . . . . . . . . . . 6, 30
Landgate, Inc. v. California Coastal Comm’n,
17 Cal. 4th 1006 (1998). . . . . . . . . . . . . . 28, 29, 30
Loretto v. Teleprompter CATV Corp.,
458 U.S. 419 (1982). . . . . . . . . . . . . . . . . . . . . . . 16
Meriden Trust & Safe Deposit Co. v. FDIC,
62 F.3d 449 (2d Cir. 1995) . . . . . . . . . . . . . . 21, 22
Penn Cent. Transp. Co. v. New York City,
438 U.S. 104 (1978). . . . . . . . . . . . . . . . . . . passim

vii
Pennsylvania Coal Co. v. Mahon,
260 U.S. 393 (1923). . . . . . . . . . . . . . . . . . . . . . . 30
San Diego Gas & Elec. Co. v. City of San Diego,
450 U.S. 621 (1981). . . . . . . . . . . . . . . . . . . . . . . 21
Tahoe-Sierra Preservation Council, Inc. v. Tahoe
Regional Planning Agency,
535 U.S. 302 (2002). . . . . . . . . . . . . . . . . 31, 32, 33
Yancey v. United States,
915 F.2d 1534 (Fed. Cir. 1990) . . . . . . . . . . . . . . 22
CONSTITUTIONS AND STATUTES
U.S. CONST. AMEND. V . . . . . . . . . . . . . . . . . . . . . 2, 13
28 U.S.C. § 1257(a). . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CAL. CONST., ART. 1, § 19 . . . . . . . . . . . . . . . . . . . . . . 2
CAL. PUB. RES. CODE § 21000 et seq. . . . . . . . . . . . . . 9
OTHER AUTHORITIES
RICHARD BABCOCK & CHARLES SIEMON, THE ZONING
GAME REVISITED (1985). . . . . . . . . . . . . . . . . . . . . 7
RICHARD A. EPSTEIN, TAKINGS PRIVATE PROPERTY
AND THE POWER OF EMINENT DOMAIN (1985) . . . 31
Gideon Kanner & Michael M. Berger, The Nasty,
Brutish, and Short Life of Agins v. City of
Tiburon, THE URBAN LAWYER, Vol. 50, No. 1
(Spring 2019). . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

1
OPINION BELOW
The opinion of the Court of Appeal of California,
Fourth Appellate District, Division One is reported at
27 Cal. App. 5th 281 (2018). App. 3–58.
JURISDICTION
The judgment of the Court of Appeal of California
was entered on September 18, 2018. App. 58. The
Supreme Court of California, the highest court of the
State, initially granted review by a December 19, 2018
order signed by the en banc court of six justices. On
April 10, 2019, however, the Supreme Court of
California dismissed the review as “improvidently
granted.” App. 1–2.
This Court has jurisdiction under 28 U.S.C.
§ 1257(a) because the California Court of Appeal’s
decision violates the Takings Clause of the United
States Constitution by rejecting the Bottinis’ claim for
a regulatory taking, raised in their merits brief filed in
that court on November 3, 2017 (see App. 92–107). See
First English Evangelical Lutheran Church v. Cnty. of
L.A., 482 U.S. 304, 313 n.8 (1987) (exercising
jurisdiction where petitioner had raised a takings claim
under the United States Constitution in the California
Court of Appeal).
On June 25, 2019, the Honorable Elena Kagan
granted petitioners’ application for a 30-day extension
of time to file the petition extending their deadline to
August 8, 2019.

2
On August 7, 2019, Justice Kagan granted
petitioners’ second application for a 28-day extension of
time to file the petition extending their deadline to
September 5, 2019.
CONSTITUTIONAL PROVISIONS INVOLVED
The Fifth Amendment to the United States
Constitution states:
No person shall … be deprived of life, liberty,
or property, without due process of law; nor shall
private property be taken for public use, without
just compensation.
U.S. CONST. amend. V. App. 89.
Section 19 of Article 1 of the California Constitution
states:
Private property may be taken or damaged for
public use only when just compensation,
ascertained by a jury unless waived, has first
been paid to, or into court for, the owner. The
Legislature may provide for possession by the
condemnor following commencement of eminent
domain proceedings upon deposit in court and
prompt release to the owner of money
determined by the court to be the probable
amount of just compensation.
CAL. CONST. art. 1, § 19. App. 89.

3
STATEMENT OF THE CASE
I.

The Bottinis’ Plight — to Build a Home

For eight years and running, all that Frank and
Nina Bottini, and their family trust (the “Bottinis”)
have wished to do is build a single-family home on an
ordinary 7,000-square foot lot in La Jolla, California, in
keeping with all their neighboring lots in the
community.
At the time of their purchase of the lot, the land was
occupied by a dilapidated house, which the City of San
Diego (the “City”) first deemed not historic, then
declared unsafe and a public nuisance, then ordered
demolished. In a reality-defying flip flop, only after the
non-historic, dilapidated house was demolished and
removed from the property did the City mandate,
against professional staff recommendations, an
infeasible time-traveling historical-resource review of
the then empty lot.
Prior to demolition, the Bottinis offered to let any
group or municipality, without charge, take the house
off their land if the group wanted it for preservation.
There were many loud and opinionated voices, but a
distinct lack of active response. There were no takers,
private or public, for the house. After lengthy
proceedings, the house was adjudged a public nuisance,
clearing the way for the construction of a new singlefamily home.
The Bottinis have asked for no deviation whatsoever
from current zoning requirements; they seek no special
concessions, privileges, or favors; their proposed plans
pose no peril to their neighbors. Their proposed home

4
imposes no harms to the environment. The Bottinis
have scrupulously and timely complied with each and
every arcane procedure needed to obtain a building
permit. They have obtained the approval of all
professionals on the City staff, only for the staff’s
expert judgments to be overridden by an overtly
partisan City Council that forced the Bottinis to endure
an exhaustive, expensive “review” under the California
Environmental Quality Act (CEQA), even though they
are entitled to an explicit, non-discretionary statutory
“categorical exemption” for their single-family home.
But it only gets worse. After years of senseless
delays, the Bottinis sought relief in the California
courts. First the California trial court, and then the
Court of Appeal acknowledged the administrative
shambles in the San Diego City Council, which violated
its own rules in overruling its own staff’s expert report.
Despite finding that the City Council acted unlawfully,
both courts ruled against the Bottinis on their claim for
a regulatory taking, including their takings claim
under the United States Constitution, which was
raised in their merits brief filed in the California Court
of Appeal on November 3, 2017 (see App. 92–107).
In rejecting the Bottinis’ takings claim under both
the federal and California Constitutions, the California
Court of Appeal utterly distorted this Court’s test in
Penn Central Transportation Co. v. New York City, 438
U.S. 104 (1978), by holding that the Bottinis could not
have formed distinct investment-backed expectations
in their particular project because they did not know —
and could not have known — at the time of purchase
whether they would be required either to fix up an old

5
home as a historical landmark or rip it down as a
public nuisance. The Court of Appeal held that these
uncertain expectations, wrought solely by government
action, doomed the Bottinis’ Penn Central claim.
The California Supreme Court granted review to the
Bottinis to answer just this question. It received the
Bottinis’ brief on March 22, 2019. Less than three
weeks later, on April 11, 2019, unanimously and
without explanation, the California Supreme Court
dismissed the review as “improvidently granted,” and
dismissed the case forthwith, without so much as
requiring a brief from the City Council in defense of its
unconstitutional actions. See App. 1–2.
The dismissal of the review reveals that the
California courts, which have often deviated from this
Court’s takings jurisprudence, are restricted to issuing
slap-on-the-wrist injunctions. After mangling the Penn
Central test, the California Court of Appeal made a
mockery of one other important precedent, First
English, 482 U.S. at 304, which requires that full
compensation be made for temporary total takings that
are not justified by the “normal delays” inherent in the
administrative process. The City did not, and could
not, point to any other single-family residential lot in
San Diego subjected to the delay occasioned by the
failure to apply the Class 3 CEQA exemption, yet the
California courts imply that this extraordinary delay is
“normal.”
First English overruled the earlier
California Supreme Court decision in Agins v. City of
Tiburon, 24 Cal. 3d 266 (1979), but the tradition of
California intransigence continues.
Now under
California law all delays are deemed “normal,” no

6
matter how contrived, unreasonable, or unique to the
property — for eight years and counting — so that the
caveat of “normal delays” has swallowed the basic rule
of First English.
The consequences are dire. The Bottinis’ lot lays
vacant. They have no way to recover their initial costs,
and they have incurred enormous outlays in terms of
cash and personal effort to obtain their building
permit. Nothing has moved the needle.
In the meantime their lot, if they are allowed to
build and complete a single-family home, will be worth
an estimated $3,000,000 to $4,000,000. Without a
building permit, the vacant lot is unusable and
virtually unsalable, with a $500,000 assessed value. In
the face of this provocation, the Bottinis do not seek a
constitutional revolution. They do insist that the
Takings Clause not be relegated “‘to the status of a
poor relation’ among the provisions of the Bill of
Rights.” See Knick v. Township of Scott, 139 S. Ct.
2162, 2169 (2019) (quoting Dolan v. City of Tigard, 512
U.S. 374, 392 (1994)).
Yet just that has been done by the California courts.
Their distorted readings of both Penn Central and First
English make it impossible for citizens to have their
day in court. Indeed, the shabby treatment given to
the Bottinis has no doubt been given to countless
California homeowners, and contributed to the state’s
epic housing shortages. See Gideon Kanner & Michael
M. Berger, The Nasty, Brutish, and Short Life of Agins
v. City of Tiburon, THE URBAN LAWYER, Vol. 50, No. 1,
at 18 (Spring 2019) (“‘[i]n California, the courts have
elevated governmental arrogance to a fine art’”)

7
(quoting RICHARD BABCOCK & CHARLES SIEMON, THE
ZONING GAME REVISITED 293 (1985)).
California has strayed too far from established
constitutional principles. The Court should grant
certiorari so that the healing process can begin.
II.

Background
A. The Bottinis’ 2011 Purchase of the Lot —
and the Dilapidated Cottage

In January 2011, the Bottinis paid $1.22 million for
the 7,000-square-foot lot (the “Property”), in the Village
of La Jolla in San Diego. App. 10. A lone dilapidated
structure called Windemere Cottage (the “Cottage”) sat
on the Property. App. 4–5. The Property was zoned
solely for single-family housing. App. 43. At the time
of purchase, it was uncertain whether the Bottinis
would preserve and renovate the Cottage for future
use, or whether they would tear it down in order to
make room for the construction of a new single-family
home. Still, the Bottinis were prepared to deal with
both situations.
B. The City’s Refusal to Designate the
Cottage as Historical
On August 1, 2011, the Bottinis applied to the City’s
Historical Resources Board (“HRB”), seeking a
determination as to whether the Cottage was eligible
for designation as a historical resource. App. 10–11.
After three months of hearings and reviews, the
HRB denied historical designation of the Cottage over
the objections of powerful local groups, including the La

8
Jolla Historical Society (“LJHS”) and the Save Our
Heritage Organisation (“SOHO”). App. 11.
The
Bottinis repeatedly offered to donate the Cottage to the
LJHS if the group would move it off the Property.
Declining these offers, the LJHS persisted in its efforts
to force the Bottinis to maintain the dilapidated, unsafe
structure on their Property.
C. The City’s Declaration of the Cottage as
a Public Nuisance and Issuance of a
Demolition Order
In November 2011, the Bottinis requested that the
City’s Neighborhood Code Compliance Division
(“NCCD”) evaluate the Cottage to determine whether
it was a dangerous and unsafe structure. App. 63–64.
The NCCD reviewed an exhaustive written opinion
from a structural engineer concluding that the Cottage
lacked structural integrity and was thus unsafe for
human habitation. App. 64. A Senior Civil Engineer
from the NCCD inspected the Cottage. Following the
inspection, on December 21, 2011, the NCCD declared
the Cottage a public nuisance and ordered the Bottinis
to obtain a demolition permit. App. 4. In compliance
with the City’s order, Bottinis timely applied for and
obtained a demolition permit from the City. App.
13–14. The demolition was thereafter completed.
Despite the City’s nuisance determination, the
controversy over the demolition of the Cottage
persisted. On the one hand, the local incumbents,
represented by powerful groups, such as the LJHS and
SOHO, deemed the Cottage a historical resource and
resented its demolition, even though they failed to
persuade the HRB. On the other hand, the City

9
agencies and engineers declared the Cottage a public
nuisance and required its demolition to keep the public
safe.
Caught in the middle of this controversy were the
Bottinis, who had, as the City concluded, followed the
law “to the letter” in their quest to build a single-family
home. App. 15. They then needed to apply to the City
for a building permit, called a Coastal Development
Permit (“Permit”). App. 14–16.
III.

The City Council’s Unlawful Conduct
Effectively Denying the Bottinis a
Permit — and All Use of the Property

On August 22, 2012, over eight months after the
demolition of the Cottage, the Bottinis applied to the
City’s Development Services for a Permit to construct
their single-family home. App. 14. On January 11,
2013, the City staff made its environmental
determination that the issuance of the Permit was
“categorically exempt” under the applicable guidelines
promulgated pursuant to CEQA, CAL. PUB. RES. CODE
§ 21000 et seq., pertaining to the construction of a
single-family residence (CEQA Guidelines § 15303).
App. 14.
To revenge its loss before the HRB to designate the
Cottage as a historical resource, the LJHS banded
together with the La Jolla Community Planning Group
and filed CEQA administrative appeals on February 4,
2013. See App. 14–15. Their appeals alleged that the
City staff’s environmental determination relied on an
improper baseline (urging for applying a baseline
predating the demolition of the Cottage), that the

10
demolition of the Cottage was part of the “whole of the
action,” and that substantial evidence established that
the demolition of the Cottage and the construction of a
single-family home (the “Project”) would have a
significant negative effect on a historical resource,
requiring the preparation of an environmental impact
report (“EIR”).
On March 15, 2013, the City’s staff issued a detailed
Staff Report to the City Council recommending denial
of the appeals because the Project was indeed
categorically exempt from CEQA review and because
the proper date for that analysis was August 12, 2012,
at which time the Project was a vacant residential lot
following the proper issuance of the demolition permit
in December 2011. App. 14, 64.
On June 3, 2013 — nine months into the Permitapplication process — the City Council held a public
hearing regarding the appeals, at which the City staff
reiterated its position that its report showed that the
demolition permit was validly issued. Specifically, the
City staff testified that, throughout the permitting
process, the Bottinis “followed [the City’s laws and
regulations] to the letter.” App. 15. Members of the
public spoke for and against the appeals.
Against the advice of City staff, one Councilwoman
(a former member of LJHS’s board of directors) moved
to grant the appeals. See App. 48 n.11. The City
Council deadlocked on the motion on two separate fourto-four votes and, thereafter, voted to continue the
consideration of the appeals.

11
On September 23, 2013, the City Council considered
the appeals for a second time. The City Council again
deadlocked on a four-to-four vote. But the City Council
was required by law to reach a decision, so that
somehow the tie had to be broken then and there. See
App. 15, 64. Then one Councilman who had previously
voted against the appeals, switched his vote solely to
allow the City Council to reach a decision. With this
vote switch, the City Council granted the appeals —
contrary to the recommendation of its professional
staff.
On that same day, the City Council adopted the
resolution that “there is a reasonable possibility that
the activity will have a significant effect on the
environment due to unusual circumstances and may
cause a substantial adverse change in the significance
of a historic resource” (the “Resolution”). See App. 15,
31.
The Resolution remanded the Project to the City’s
staff with instructions to reevaluate the environmental
determination with a baseline in 2010 — before the
Bottinis even owned the Property. See App. 15.
The Resolution reopened two issues that had been
exhaustively reviewed and properly decided — the
HRB’s refusal to designate the Cottage as a historical
resource, and the validity of the demolition permit,
without offering any explanation why a single-family
home on a lot specifically zoned for that purpose posed
a threat to the environment. See App. 43, 63–64. In
essence, the Resolution forced the Bottinis to do the
impossible: engage in the time-consuming, expensive
process of preparing an EIR with a baseline that

12
incorporated the Cottage, which no longer existed, and
which had been found ineligible for designation as a
historical resource.
Everything was back to square one. The Bottinis
were effectively denied a building permit — 12 months
after filing their application, 18 months after
complying with the demolition order, and 33 months
after purchasing the Property.
IV.

Proceedings in California Courts
A. The Superior Court of California denied
any compensation to the Bottinis even
after finding that the City acted
unlawfully.

On November 13, 2013, nearly three years after the
Bottinis purchased the Property, they sued the City
and the City Council (sometimes collectively referred to
as the “City”) in the Superior Court of California,
County of San Diego. The Bottinis sought a writ of
mandamus to set aside the Resolution, and brought an
action for damages for inverse condemnation.
On December 15, 2014, the trial court granted the
petition, concluding that the City Council abused its
discretion in determining — without substantial
evidentiary support — that the Project was not
categorically exempt from CEQA review. App. 69. The
court directed the City Council to set aside its
Resolution. On January 26, 2015, the court issued the
peremptory writ of mandamus, without setting a date
for the City to comply. App. 60. The December 15,
2014 order did not rule on the second cause of action
seeking damages for inverse condemnation.

13
In a transparent attempt to stall the Bottinis’ case,
the City prematurely appealed the trial court’s writ
order while the case remained pending — before final
judgment could be entered. The premature and,
indeed, meritless appeal delayed the case for almost a
year, until it was dismissed for lack of jurisdiction in
January 2016. See Bottini v. City of San Diego, No.
D067510, 2016 Cal. App. Unpub. LEXIS 629, at *2
(Cal. Ct. App. Jan. 26, 2016).
On June 7, 2016, the Bottinis amended their
complaint to add due-process and equal-protection
claims. On October 21, 2016, upon the City’s motion,
the trial court granted the City summary judgment
with respect to the Bottinis’ second (inverse
condemnation), third (due process), and fourth (equal
protection) causes of action. App. 5–6.
B. The Court of Appeal of California
misapplied Penn Central and rejected
the Bottinis’ takings claim.
On January 5, 2017, the City filed its second notice
of appeal from the trial court’s order granting the writ
of mandate. The Bottinis cross-appealed the trial
court’s summary-judgment rulings. In their November
3, 2017 merits brief, the Bottinis squarely raised a
claim under the federal Takings Clause (see App. 94
(citing U.S. CONST. amend. V)), arguing that the trial
court erred in granting summary judgment to the City
because sufficient factual issues existed with respect to
Penn Central’s investment-back-expectations factor (see
App. 102–105).

14
On September 18, 2018, the California Court of
Appeal affirmed in a published decision, Bottini v. City
of San Diego, 27 Cal. App. 5th 281 (2018). App. 3–58.
The court held that the City unlawfully ordered the
evaluation of a single Project going back to 2010,
because there was no evidence showing that the
Bottinis’ construction of a single-family home could
cause any significant environmental change, and
because the Resolution employed an improper baseline
for such evaluation. See App. 31–32.
But in the second portion of the decision, the Court
of Appeal concluded that the three-part test in Penn
Central governed the Bottinis’ inverse condemnation
claim. App. 34–42. Affirming the trial court’s
summary judgment ruling, the Court of Appeal denied
the Bottinis any compensation for their losses. The
court reasoned, erroneously, that the Bottinis had not
established at the appropriate point in time — in its
view, the original acquisition of the Cottage in January,
2011 — that they had sufficiently distinct investmentbacked expectations necessary to support a claim for
compensation in a regulatory-takings case. App.
43–46. More concretely, the court found “no basis” to
support “a reasonable expectation” on the part of the
Bottinis “that they would be permitted to engage in
such conduct without undertaking any form of
environmental review.” App. 45.
At no point in its Penn Central discussion did the
Court of Appeal evaluate the environmental concerns
that might be invoked to justify denying the Bottinis a
Permit. See App. 43–46. But the Court of Appeal
turned to those issues briefly in its rejection of the

15
equal-protection claim on the ground that “a legislative
classification does not deny equal protection if the
‘distinctions drawn by a challenged [act] bear some
rational relationship to a conceivable legitimate state
purpose.’” App. 53. Thus, “[a] distinction … is not
arbitrary if any set of facts reasonably can be conceived
that would sustain it.” Id. Consistent with this
standard, the Court of Appeal did not consider any
evidence of possible adverse consequence, and refused
to remand the case for further consideration of that
point, holding the existence of an actual stated basis for
decision was always irrelevant. App. 52–57.
C. After granting review, the Supreme
Court of California dismissed the review
as improvidently granted
The Bottinis petitioned for review in the Supreme
Court of California, which was granted on December
19, 2018. On March 22, 2019, the Bottinis filed their
merits brief in the Supreme Court of California.
Three weeks later, on April 10, 2019, the Supreme
Court of California dismissed review as “improvidently
granted.” App. 1.
* * *
To date, over eight years after the Bottinis
purchased the Property, nearly six years after the
Bottinis commenced action in the Superior Court, four
and a half years after the issuance of the writ of
mandate, and almost a year after the affirmance of the
writ order, the City has not complied with the order
that requires the unlawful Resolution be set aside. The
Bottinis still do not have a Permit to build their home.

16
REASONS FOR GRANTING THE PETITION
I.

The California Courts Have So Gutted the
Penn Central Test That It No Longer Places
Any Constitutional Restraint on the
Denials and Delays of Building Permits in
California
A. Penn Central sets forth a balancing test,
including consideration of investmentbacked expectations.

The California Court of Appeal has so twisted the
Penn Central balancing test for regulatory takings that
it no longer imposes any restraint against the arbitrary
and capricious behavior of local governments during
the permitting process. To set the stage, Penn Central
first distinguishes physical from regulatory takings.
As the law has developed, physical takings are
governed by the per se compensation rule of Loretto v.
Teleprompter CATV Corp. which holds that “a
permanent physical occupation [of private land]
authorized by government is a taking.” 458 U.S. 419,
426 (1982). But this Court has adopted a radically
different standard to deal with “regulatory takings”
that leave a landowner in full possession of the
property but still impose restrictions on its use or
disposition. In these cases, this Court has instructed
all lower courts to balance the inconvenience or loss of
the regulated landowner against the justifications,
often couched in environmental terms, for imposing the
challenged restrictions. The famous formulation of that
test reads:

17
The economic impact of the regulation on the
claimant and, particularly, the extent to which
the regulation has interfered with distinct
investment-backed expectations are, of course,
relevant considerations. So, too, is the character
of the governmental action. A “taking” may
more readily be found when the interference
with property can be characterized as a physical
invasion by government, than when interference
arises from some public program adjusting the
benefits and burdens of economic life to promote
the common good.
Penn Cent., 438 U.S. at 124 (citations omitted).
In dealing with this balance, Justice William J.
Brennan, Jr. first looked at the nature of the
government intrusion, and then turned to its asserted
public justifications. On these private losses, he wrote:
[T]he New York City law does not interfere in
any way with the present uses of the Terminal.
Its designation as a landmark not only permits
but contemplates that [landowner] may continue
to use the property precisely as it has been used
for the past 65 years: as a railroad terminal
containing office space and concessions. So the
law does not interfere with what must be
regarded as [landowner’s] primary expectation
concerning the use of the parcel.
More
importantly, on this record, we must regard the
New York City law as permitting [the

18
landowner] not only to profit from the Terminal
but also to obtain a “reasonable return” on its
investment.
Id. at 136.
The phrase “investment-backed expectations”
derives from the key finding that the ongoing
operations of Penn Central are sufficient to allow it to
obtain a reasonable rate of return on its invested
capital. In essence, the Court approaches the case as
if Penn Central were a public utility that was allowed
a reasonable rate of return on its invested capital. It
then further holds that the air rights to build above the
terminal did not have to receive any independent
valuation, even though they were fully vested and
protected rights under New York State law, which
could be, like other forms of property, sold, mortgaged,
leased, or given away.
B. The California Court grievously
misinterpreted accepted law on the status
of investment-backed expectations.
One key gap in the Penn Central formulation stems
from its failure to address the pivotal case of vacant
land, where by definition the property owner receives
no current revenues, and indeed suffers a negative rate
of return on the property, given that it is obligated to
pay taxes and to incur heavy expenses in an effort to
lift the restrictions that have been so imposed on the
property. In this case, Justice Brennan’s notion of
investment-back expectations cannot be applied in any
straightforward fashion when there is no going-concern
that generates a positive rate of return on the property

19
owner’s investment. At this point, the Penn Central
test necessarily becomes otiose if it values at zero all
future development rights, as was done credibly in
Penn Central itself.
Hence, it becomes imperative to develop some
formula that allows courts to steer a troubled path
between a legal regime that allows for no development
at all and one that strips local governments of all power
to regulate the new construction of vacant land.
Nothing in Penn Central itself addresses, let alone
answers, this challenge. Nor have lower courts been
able to offer any clear guidance as to how this might
best be done.
The intellectual gap in the Penn Central formula is
most evident in the grotesque transformation of
“investment-backed expectations” in petitioners’ case
decided over 40-years after Penn Central. The Bottinis
bought the land for one and only one purpose: to build
or renovate a single-family home in keeping with the
neighborhood for either sale or use. Clearly, their
$1.22 million investment was made to obtain a return
on capital either through sale, lease, or use. Taken
together, the full range of options rested on their
investment-backed expectations.
But this sensible interpretation of the requirement
received a back-of-the-hand rejection by California
courts. Now the California Court of Appeal has given
the words “distinct” or “particular” investment-backed
expectations a tortured reading that is at odds with
Penn Central. The relevant time for analyzing
“distinct” expectations, according to the court in
Bottini, was when the land was acquired and when

20
logically the Bottinis could not know whether they
would be forced to preserve the dilapidated structure as
an historical monument, or rip it down as a public
nuisance. They were prepared to do either, and when
the time came they properly dismantled the derelict
structure. The California Court of Appeal held that the
Bottinis were not, as a matter of law, entitled to just
compensation for a taking under Penn Central because
they could not establish that they had reasonable
investment-backed expectations solely by pointing to a
true representation made by the prior owner to the
Bottinis that the Property “could either be renovated or
demolished and replaced.” App. 44–45. The Court of
Appeal held that this statement of intention was
insufficient:
Mr. Bottini’s declaration does not state that,
at the time the Bottinis purchased the
[Property], they intended to demolish the
[Cottage] and construct a residence on the lot.
Thus, the Bottinis’ expectations are not distinct
and concrete, but are instead vague and
abstract.
App. 44.
That point proved dispositive because, based on the
“the lack of a distinct investment-backed expectation,”
the California Court of Appeal affirmed the trial court’s
grant of summary judgment for the City on the
Bottinis’ inverse-condemnation claim. App. 47. But
the California courts completely missed the point that
the proper expectation to consider is the use of the
property (here, as a single-family residence), not the
manner in which the owner achieves the use

21
(renovation versus new construction). If this logic
remains unchallenged, then any initial uncertainty
about the future course of a profit-making sidesteps the
Penn Central balancing test by requiring a summary
judgment in favor of the local government. Neither
side of the Penn Central test matters. It is irrelevant
that the government action is devastating to the
property owner. It is equally irrelevant that the
private project has trivial or even positive
environmental impacts. Given the complexity of the
land-use approval process, any local government has it
within its power to find or create some residual level of
uncertainty sufficient to neutralize Penn Central. The
misapplication of the reasonable-investment-backedexpectation test has become the death knell to any
landowner objection to any unlawful permitting
process.
The decision of the California Court of Appeal might
be thought to have some superficial credibility from the
general rule cited by Justice Brennan in San Diego Gas
& Electric Co. v. City of San Diego, 450 U.S. 621, 654
(1981). “As soon as private property has been taken,
whether through formal condemnation proceedings,
occupancy, physical invasion or regulation, the
landowner has already suffered a constitutional
violation, and the self-executing character of the
constitutional provision with respect to compensation
is triggered.” Id. (emphasis added, internal quotations
and citations omitted).
The same thought was
expressed in Meriden Trust & Safe Deposit Co. v.
Federal Deposit Insurance Corp.: the landowners “of
course are correct that the critical time for considering
investment-backed expectations is the time a property

22
is acquired, not the time the challenged regulation is
enacted.” See 62 F.3d 449, 454 (2d Cir. 1995)
(citing Yancey v. United States, 915 F.2d 1534 (Fed.
Cir. 1990)).
The error in the holding of the California Court of
Appeal was to assume that at the time of purchase the
Bottinis’ investment-backed expectation had to be
worthless because they did not know the manner in
which that expectation would be achieved. See App.
44–45. Thus this case presents several related, but
unresolved challenges for the Penn Central test. First,
what are the distinct investment-backed expectations
of the Bottinis, or any purchaser, of vacant land?
Second, when and how are those expectations
measured? If, as the evidence presented below
indicates, the investment was made with the sole
expectation of being able to maintain a single-family
home on a residential lot, then the “when” answer
requires a similar measurement whether it is
measured at time of purchase or at the subsequent
time of a permit application. The method of achieving
the expectation (either remodel or build a new home)
does not change with the time that expectation is
measured. It is positive, not zero, in both cases.
Certiorari should be granted to clarify just what
these important propositions mean for the Penn
Central test. In ordinary private transactions, the risk
of gain or loss transfers to the buyer at the conclusion
of the voluntary transaction. The same rule applies in
takings cases as well. Once the government has taken
title, it gets all the upside and downside of the
transaction. The former owner in turn has a fixed

23
claim for the value of the property at that time, plus
the interest that accrues between the time of the taking
and the time of payment. Put otherwise, the taking
makes the former owner a creditor of the government
entitled to interest payments for the period that the
underlying obligation remains unpaid.
One consequence of this rule is that subsequent
changes in the general law that occur after the taking
do not affect the amount of compensation. There was,
however, no change in the general law in the Bottinis’
case. There was only a misapplication of the relevant
standard. Applied to the Bottinis’ case, therefore, the
proper application of that rule takes into account the
uncertainties at the time of the taking. Thus, if there
is a probability, “p”, that the Property will be declared
a historical landmark, the first component of value is
pVL for the landmarked status (“VL” refers to the
Property’s value following historical designation).
Since there are only two choices, the second component
of value is (1-p)VN—the value of the Property if the
structure on the Property is indeed a public nuisance.
The total is the sum of these two numbers, pVL + (1p)VN > 0.
In this case, because the actual odds of a wrecked
building being declared a historical landmark were
exceedingly small, most of the value inhered in the
second term ((1-p)VN). What the California Court of
Appeal did was breathtaking in its sheer audacity. It
pointed to the initial uncertainty and assumed that the
total value was zero — the one answer that is totally
wrong. The gross deviation from accepted principles
cries out for correction by this Court.

24
C. The California Court
grievously exaggerated
environmental interest.

of Appeal
the City’s

One further reason to grant certiorari is to correct
the serious misinterpretation of the second prong of the
Penn Central test occasioned by the California Court of
Appeal’s kid-glove treatment of the City’s asserted
environmental interest. There is no doubt that the
state has large powers to respond to any possible
externalities, but the decision below goes far beyond
those broad boundaries. One clear case for government
regulation arises from the construction of any new
building. The most obvious externalities are nuisancelike activities: noises, smells, vibrations, leakages, of
which there is not a whisper here or in Penn Central.
But Penn Central established conclusively that modern
takings law does not treat nuisance control as setting
the outer limits of the police power. Building a Breuer
tower on top of Grand Central Station was not enjoined
because it created a public nuisance. Instead, New
York used the Grand Central Terminal’s unique
location along Park Avenue as a defense for its refusal
to grant a permit. Thus, Justice Brennan wrote:
Because this Court has recognized, in a
number of settings, that States and cities may
enact land-use restrictions or controls to
enhance the quality of life by preserving the
character and desirable aesthetic features of a
city, appellants do not contest that New York
City’s objective of preserving structures and
areas with special historic, architectural, or

25
cultural significance is an entirely permissible
governmental goal.
Penn Cent., 438 U.S. at 129 (citations omitted).
Yet the decision below goes far beyond the
proposition that Justice Brennan announced in Penn
Central. The clear negative implication from Justice
Brennan’s quoted passage is that the case would have
come out the other way if the proposed development
was, as is the case with the Bottinis, consistent with
the character of the neighborhood and imposed no
special burdens on any party. Thus the Bottinis case
falls at that opposite pole from Penn Central. The
Bottinis present no risk of a common-law nuisance.
Nor does the construction of single-family home in
keeping with the neighborhood offend any special
historic, architectural, or cultural standard.
Nonetheless, the California Court of Appeal refused to
even look at the second-half of the Penn Central
balancing test. See App. 47. As far as it was
concerned, no balancing was needed at all, because
local government control becomes total when any court
can decide wrongly that the Bottinis could not meet the
“distinct” expectations test. That one determination
cuts off any review of the environmental issues at all.
Accordingly, the Court of Appeal found “no basis” to
support “a reasonable expectation” on the part of the
Bottinis “that they would be permitted to engage in
such conduct without undertaking any form of
environmental review.” App. 45 (emphasis in original).
The California Court of Appeal’s objection to the
Bottinis’ claim wholly misconceives the case. The
Bottinis rightfully expected, when they invested $1.22

26
million dollars in their Property, to be able to construct
or renovate a single-family home in the same manner
and time frame as other similarly situated property
owners in San Diego, all of whom are and have been
categorically exempt by Class 3 from CEQA review.
They did, and do, claim and expect a hearing that
satisfies the mandate of Penn Central, which would
require at a minimum presentation of evidence
demonstrating the amount of just compensation for the
regulatory taking caused by the City’s denial of a
“Coastal Development Permit” that normally issues as
of right to owners of vacant lots zoned for single-family
homes.
And so Penn Central is turned upside down. Penn
Central pitted a strong property-rights claim against a
strong environmental claim. The property rights claim
there was rejected because the property retained a
current use that guaranteed it a reasonable rate of
return on its original investment. The Bottinis have no
permitted use, and a huge negative rate of return. The
environmental claims in Penn Central were also found
to have great weight because of their distinctive impact
on the Manhattan landscape. See 438 U.S. at 110 &
n.8, 115. In contrast, here the Bottinis are ruined
financially without any perceivable environmental risk
from their intention to build an ordinary single-family
home. See App. 28–31. No lower court should have
discretion to rig the test for investment-backed
expectations to deny a building permit for no good
reason. Certiorari must be granted to correct this
perverse and indefensible application of the Penn
Central case.

27
II.

The California Court of Appeal Misread the
“Normal Delay” Exception of First English
by Allowing It to Deny Any Compensation
in All Claims for Total Temporary Takings

In First English, the church operated its Lutherglen
campsite on twelve acres of property on the banks of
Middle Forks of Mill Creek in Los Angeles County. See
482 U.S. at 307. After major fires denuded lands
upstream from the camp, the County imposed a
temporary but total moratorium on new construction at
the location of the former site. Id. The only issue
before this Court was whether that regulation itself
generated a prima facie obligation to compensate the
owner for its loss of use during the designated period.
As in the Bottinis’ case, the church’s claim in First
English only arose under California law but the Court
in First English perceived no difficulty for certiorari
jurisdiction, see id. at 313 n.8, because, as is the case
here, the City conceded below that “this [California
Supreme] Court has held that the takings clause in the
California Constitution should be construed
‘congruently’ with the federal takings clause, with minor
differences that are not applicable here.” See App. 42.
With the issue properly before it, this Court held
that prima facie, such compensation was required, and
remanded the case back to the California courts for
further consideration to determine whether the local
government offered some sufficient police power
justification for its decision. See First English, 482
U.S. at 311, 322. On remand, the California Court of
Appeal held that such a police-power justification was
present given the need to protect young campers from

28
the potential risk of death or personal injury from
flooding. First English Evangelical Lutheran Church
v. County of Los Angeles, 210 Cal. App. 3d 1353, 1372
(1989).
Under First English, this Court also announced
another qualification to the temporary-total-takings
rule that this Court has not revisited in 32 years:
We limit our holding to the facts presented,
and of course do not deal with the quite different
questions that would arise in the case of normal
delays in obtaining building permits, changes in
zoning ordinances, variances, and the like,
which are not before us.
482 U.S. at 321 (emphasis added). Regrettably, the
Bottinis’ plight illustrates the way in which lower
courts can degrade the notion of “normal.”
The decision here is even in tension with California
law — Landgate, Inc. v. California Coastal
Commission, 17 Cal. 4th 1006 (1998), which held that,
doubtfully, an incorrect assertion of jurisdiction that
denied a landowner all use of his property for two years
counted as a “normal delay” that took the case out of
the First English rule. But even that court held that:
“It would be, of course, a different question if, even
though the [government’s] position … was so
unreasonable from a legal standpoint as to lead to the
conclusion that it was taken for no purpose other than
to delay the development project before it. Such a
delaying tactic would not advance any valid
government objective.” Id. at 1024. The repeated
stalling tactics of the San Diego City Council show how

29
this principle has been flouted in the very jurisdiction
that announced that rule. See App. 12–16, 74–75.
Certiorari is needed to avoid the absurd result that
makes all delays normal, and so that the important
constraint that this Court imposed on government
misbehavior does not become dead letter law.
The phrase “normal delays” has an irreducible
normative component. Individual landowners may be
able to predict that they will be ill-treated, but that
knowledge should not be used to strip them of all
procedural protections. Inordinate delays in land-use
proceedings are not “normal” just because they have
become commonplace. Justice Ming W. Chin of the
California Supreme Court made this forceful
observation about the “normal delay” exception to First
English in his dissent in Landgate:
When a regulatory agency prohibits all use of
a particular property, and the property owner is
forced to sue the agency to get it to change its
position, its stonewalling is not fairly
characterized as a “normal delay” in the permit
approval process.
17 Cal. 4th at 1205 (Chin., J., dissenting).
As Justice Chin further noted, the California
Supreme Court incorrectly adopted the exact meaning
of the phrase “normal delay” that Justice John Paul
Stevens offered in his First English dissent, namely
this: “Litigation challenging the validity of a land-use
restriction gives rise to a delay that is just as ‘normal’
as an administrative procedure seeking a variance or
an approval of a controversial plan.” First English, 482

30
U.S. at 334–35, cited in Landgate, 17 Cal. 4th at 1033.
But Justice Stevens’s formulation makes it appear as
though all delays initiated by the local government are
“normal,” which in turn invites any local government to
file pointless motions and frivolous appeals solely to
avoid issuing a permit. Like the term reasonable
investment-backed expectations, the term “normal” has
an implicit normative component. Not every delay is
normal, for many delays are both excessive and
unprincipled, so some guidance is imperative as to its
proper use.
The situation here has an eerie resemblance to the
exhaustion of state remedy requirement under Section
1983, which this Court overturned in the last term in
Knick, 139 S. Ct. at 2162. It is important to remember
that opportunism in land-use cases is not limited to
crafty property owners. All too often local hostility to
new development gets explicit voice in hearings before
local governments, and those senseless delays, both
before and after a final administrative determination is
made, constitute infringement of property rights every
bit as much as the misplaced exhaustion of remedy
requirement struck down in Knick. See id. at 2168.
There are, moreover, good political economy reasons
why only exceptional, not normal, delays should
generate takings claims. The point here goes back to
the provocative observation by Justice Oliver Wendell
Holmes in Pennsylvania Coal Co. v. Mahon, 260 U.S.
393 (1923), when he observed that cash compensation
is not required for the imposition of general land use
regulations that produce an “average reciprocity of
advantage.” Id. at 415. The notion of a “normal delay”

31
is meant to capture just this idea. In contrast,
abnormally long delays are outside the set of forced
exchanges that produce an average reciprocity of
advantage, and hence the economic imbalances have to
be compensated in cash. Since all property owners
have to go through normal procedures, it becomes
unduly burdensome to hold that all such small delays
should generate an obligation to compensate. Instead,
each landowner now understands that it receives a
quid pro quo for the loss of compensation under normal
delay, by not having to pony his or her share of taxes to
fund payments to all other applicants before a local
land use board. The relevant notion is one of “implicitin-kind compensation,” which applies not only in this
case, but in all instances of small but widespread
invasions of property rights. For explication and
examples, see RICHARD A. EPSTEIN, TAKINGS PRIVATE
PROPERTY AND THE POWER OF EMINENT DOMAIN
195–205 (1985).
The removal of the large
administrative costs generates savings that are shared
by all property owners, without working a transfer of
wealth to some politically favored class — the very
political risk that has been imposed on the Bottinis as
outsiders to the local politics. So long as the size of the
delay is proportionate, every landowner from the ex
ante position benefits from the elimination of the
compensation requirement.
In more technical
language, allowing an exemption for normal delays
works a Pareto improvement, while privileging
excessive delay works an illicit wealth transfer from
privileged insiders to vulnerable outsiders.
The power of this distinction is illustrated by TahoeSierra Preservation Council, Inc. v. Tahoe Regional

32
Planning Agency, 535 U.S. 302 (2002), which is readily
distinguishable from the Bottinis’ case. The issue in
Tahoe-Sierra was whether the decision by the Tahoe
Regional Planning Agency to impose a general
moratorium on development in order to take time to
prepare a comprehensive land-use plan constitutes a
per se taking that requires full compensation. In that
instance, the delay was 32 months, and was issued in
two separate stages as work progressed. See id. at 306.
This Court held that the per se rule did not apply. See
id. at 342. The simple explanation is that the time
allocated for this comprehensive effort could easily
have been needed to coordinate all the moving parts in
a major decision that could not easily be reversed after
it was made. The longer delay under conditions of
complexity did not work with any disguised or illicit
wealth transfers as all landowners within the region
were in the same basic position.
Accordingly, Tahoe-Sierra stands in sharp contrast
with the Bottinis’ unhappy predicament. The City’s
endless series of maneuvers have consumed over eight
years with no end in sight. But far from seeking to
implement any comprehensive development plan for a
large and complex region, the City’s sole objective is to
prevent the Bottinis, by hook or crook, from building an
ordinary single-family residence indistinguishable from
neighboring houses.
Any comprehensive zoning
ordinance may well need the approval of a majority of
the community. But unlike here, the burden of public
delay does not fall on a single landowner to bear the
brunt of any new decision. The oft-quoted remark in
Armstrong v. United States is most applicable:

33
The Fifth Amendment’s guarantee that
private property shall not be taken for a public
use without just compensation was designed to
bar Government from forcing some people alone
to bear public burdens which, in all fairness and
justice, should be borne by the public as a whole.
364 U.S. 40, 49 (1960).
If excessive delays are impermissible, just what
counts as a normal delay? One good reference point is
found in legislation that applies specific limits for
specific moratoria, all of which are far shorter than the
many years involved in this case. Thus, in his dissent
in Tahoe-Sierra, Chief Justice William H. Rehnquist
emphasized the majority’s recognition that permissible
moratoria are limited in duration — commonly ranging
between 45 days and two years:
As the Court recognizes, … state statutes
authorizing the issuance of moratoria often limit
the moratoria’s duration. California, where
much of the land at issue in this case is located,
provides that a moratorium “shall be of no
further force and effect 45 days from its date of
adoption,” and caps extension of the moratorium
so that the total duration cannot exceed two
years …. Another State limits moratoria to 120
days, with the possibility of a single 6-month
extension …. Others limit moratoria to six
months without any possibility of an extension.
535 U.S. at 353–54.

34
The inordinate delays in this case — eight years
and counting — far exceed these common time
limitations, without a semblance of justification. A
proper valuation of the losses from government action
should include all the economic losses that arise when
the government immobilizes land use, for eight years
and counting. There are always line-drawing problems
between normal and extraordinarily long delays, but
this case is not one of them. This Court needs to
respond firmly to the epidemic of abuse wrought by
intransigent local governments, and should grant the
writ of certiorari.
CONCLUSION
For all the foregoing reasons, the Court should
grant this petition for a writ of certiorari.
Respectfully submitted,
ALBERT Y. CHANG
YURY A. KOLESNIKOV
BOTTINI & BOTTINI, INC.
7817 Ivanhoe Avenue
Suite 102
La Jolla, California 92037
(858) 914-2001

RICHARD A. EPSTEIN
Counsel of Record
800 North Michigan Avenue
# 3502
Chicago, Illinois 60611
(312) 702-9563
richard.epstein@nyu.edu

Counsel for Petitioners
September 5, 2019

